                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDLTM

    Case Number: A09020011                                                                   Page 1 of 1



             NSF OIG received an allegation of plagiarism within an NSF proposal.1 Our inquiry confirmed
         that the subject2had plagiarized a small amount of text directly from documents available on the
         internet. A letter was sent to the subject requesting his perspective on the allegation. The subject
         claimed the text was common knowledge in his field; however, he copied multiple verbatim
         sentences without providing appropriate attribution. Based on the de minimus amount of copied
         text, we sent a questionabls research practices letter to the subject recommending he improve his
         citation practice.

                    Accordingly, this case is closed and no further action will be taken.


                                                                                                        i




I                                         l                                     l                               1
NSF OIG Form 2 (1 1/02)
